WAIVER

SUPREME COURT OF THE UNITED STATES
20-5010

Supreme Court Case No.
Warner , Montana

(Petitioner) (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:
[=] Please enter my appearance as Counsel of Record for all respondents.

[] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

=] I am a member of the Bar of the Supreme Court of the United States.
(_) I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature UMeeetns To epee
ties “Re

Matthew T. Cochenour
f=] Mr. [] Ms. [] Mrs. [] Miss
mn State of Montana - Department of Justice

215 North Sanders
City & State elena, MT zip 29620
ne 406-444-2026 mcochenour2@mt.gov

 

(Type or print) Name

Fir

 

Address

 

 

Pho Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Danny Lee Warner, Jr.
